George F. Grob /s/
Deputy Inspector General
  for Evaluation and Inspections

Performance Data for the Senior Medicare Patrol Projects: August 2001 Performance Report

(OEI-02-01-00301)


Edwin Walker, Director

Office of Program Operations and Development

Administration on Aging


At the request of the Administration on Aging (AoA), we have continued to collect

performance data for the Senior Medicare Patrol Projects. The attachments present

cumulative performance data from the beginning of each project. Attachment A contains 48

months of data for the 12 original projects. Attachment B reflects the status after the first 24

months for 29 of the projects. Attachment C presents performance data for the first 12

months of 7 new projects. Please note that the project data are self-reported and that we have

not independently verified their accuracy.


In summary, the 48 Senior Medicare Patrol Projects have trained 22,188 volunteers. The

volunteers in-turn have conducted 74,802 training sessions reaching 484,071 beneficiaries. 

The beneficiaries have reported 13,388 complaints, of which 3,142 have been referred for

follow-up. To date, closed complaints have resulted in the recoupment of $2,896,679 in

Medicare funds and $61,631,137 to other payors.


The Centers for Medicare & Medicaid Services plans to begin implementation of a complaint

tracking system for the Senior Medicare Patrol Projects in September 2001. This is a

significant event which should greatly enhance the projects’ abilities to report savings. As

stated in past reports, we expect a significant number of the beneficiaries, who have learned to

detect fraud, waste, and abuse from the Senior Medicare Patrol Projects, are calling the OIG

fraud hotline or other contacts, thereby, not giving the projects their full credit. Also,

substantial savings, which cannot be tracked, may be derived from a sentinel effect whereby

fraud and errors are reduced in light of Medicare beneficiaries’ scrutiny of their bills.


We will continue to monitor the projects and provide you with summary reports of

performance data. If you have any questions, please call me at 202-619-0480 or have your

staff call Jack Molnar at 212-264-1998.


Attachments

                                                                                                                                                                             APPENDIX A

                                 48-Month Outcomes Reported by the Senior Medicare Patrol Projects

            Activity                TOTAL         CA             HI          IA           IL         MD         MN          MO         NH            NY           PA           RI          WI

            OUTPUTS

# training sessions                       1,076          75            28         127           21        139         72          27         11           459           50           10          57

# trainers trained                      15,913         1,385          165      1,321           243        957        482         104        484         9,757          119          245         651

# media events                          12,741          162           812         501           79        186        387          57        986           286           48       6,154       3,083

# community education events              3,295          18            50         451          192        591        473         128        152           774          276           48         142

           OUTCOMES

total # trainers who have ever            4,360         317            82         DK           239         27        161         104        358         2,855           64           23         130
conducted activities

# group sessions                          6,110        1,039          206         808        1,185        286        490         113        357           673          466          211         276

# beneficiaries at group sessions      243,023      50,605        7,480       25,770       43,614     14,148      10,324      6,286       7,951       25,355       38,184        4,676       8,630

# one-on-one sessions                   23,702          624             0         157          444     6,612         530      2,761       9,502         2,583          375          DK          114

total # beneficiaries educated         266,725      51,229        7,480       25,927       44,058     20,760      10,854      9,047      17,453       27,938       38,559        4,676       8,744

estimated # people reached by        71,580,199   6,949,132    1,521,183    5,692,220   10,673,350   764,969     493,088    221,000    1,190,000     700,222    10,569,000   12,753,800 20,052,235
media events

estimated # people reached by         8,695,769     20,259       10,978       39,652       10,001     46,421      18,976    238,785      16,277      251,668     8,009,200      16,673      16,879
community education events

# complaints received                     9,310         661            63         851          301        996        289          23      4,741           356          868           40         121

# complaints referred for                 1,479         199            16         362           84        192        139          21         83           193           96           35          59
follow-up

# complaints resulting in some              490          42             0          29            1        103         55         DK          32           163           39            5          21
action

Medicare $ recouped                   2,730,422   1,316,832             0   1,145,819            0        DK     109,997          0           0         6,533     144,339           DK       6,922

Other $ recouped                     61,501,396     73,214              0     59,592      146,485         DK      15,805    359,637      29,345    60,801,200       1,935           DK      14,184

Total $ recouped                     64,231,839   1,390,046             0   1,205,410     146,485           0   1,258,020   359,637      29,345    60,807,733     146,274             0     21,106

*Pending documentation of actual recoupments
                                                                                                                                                                             APPENDIX B
                                              24-Month Outcomes Reported by the Senior Medicare Patrol Projects

                     Activity               TOTAL        AK           AL         AR         AZ        CO         CT         DC1        DC2         DE          FL         GA3        GA4        ID         IN

                   OUTPUTS

# training sessions                              1,000         43           22        10         22         18          7         10          1         20           15         15         25         69         2

# trainers trained                               5,177         75          206        124        45        152        119         47         17      166            104     640         284           95        32

# media events                                   8,242         40           79        23      441           35        731         26          3     1,702           930         1           9        143         9

# community education events                     2,895         45          132         55     229           63        199         27         20         58           81          2      142           85        12

                 OUTCOMES

total # trainers who have ever conducted         2,099         65          281        26         45         25         13         41         14         39          58      108         103           34         1
activities

# group sessions                                 4,421         25          212        67      202          271         92         90         26      170             92     182         364          322         2

# beneficiaries at group sessions             173,426         706      4,204       6,256    14,537      9,622      2,974      3,107       506       4,350       2,245      5,553      12,750     10,851         88

# one-on-one sessions                          39,376     1,817            169        35         45         94        133         10      114           41          14      114            41         97         0

total # beneficiaries educated                 212802     2,523        4,373       6,291    14,582      9,716      3,107      3,117       620       4,391       2,259      5,667      12,791     10,948         88

estimated # people reached by media        149,788,856   94,570     1,486,525    420,300 1,052,680    838,532    352,355    920,000    250,000    615,000    1,739,027     1,000     308,401    800,450    70,000
events

estimated # people reached by                 777,885    24,700       10,822       5,821    24,869      6,782      9,738    178,000      4,912    123,357     127,790       530       10,262      1,722         90
community education events

# complaints received                            4,009        331           35        18      669           68         28      181            0         66          95          0          22        360         2

# complaints referred for follow-up              1,648          8           23         8      120           14         21         36          0          5           4          0          13        267         2

# complaints resulting in some action             788           3            2        DK         16        DK           0          4          0          0           0          0           1        130         0

Medicare $ recouped                           156,017          0            0         DK          0        153        162      252            0          0           0          0           0    10,970          0

Other $ recouped                              129,633    13,194              0        DK      618       3,450           0          0          0          0           0          0           0    45,864          0

Total $ recouped                              285,651    13,194              0         0      618       3,603         162      252            0          0           0          0           0    56,834          0

Please note these distinctions:
1. The AARP Foundation, DC                  2. Friendship House, DC
3. Atlanta Regional Commission, GA          4. Department of Human Resources, GA

                                                                                                                                                                                            APPENDIX B
                                  24-Month Outcomes Reported by the Senior Medicare Patrol Projects


                  Activity                  MA           ME         MI         MT        NM          NV          OH         OK        OR           PR         TX5          TX6         UT           VA         WA

                OUTPUTS

# training sessions                               43           27        30          8          6          43           6         4         55           17          14           31          7           20      411

# trainers trained                               171          138     466           42        163          68         113        37        356          264         214          109         50          410      487

# media events                                   178           82         3     2,537         192          42          68        27        252           52          14           65          3          133      425

# community education events                     127          211        23         77        138          53          86        97         32          428          49          127         24          161      132

               OUTCOMES

total # trainers who have ever                    57           70        66         61         39          37          43        11         63            8         100           48         16          154      487
conducted activities

# group sessions                                 199           61     134           48         40          40         160        10         72           31          60          162         26          495      792

# beneficiaries at group sessions             5,169       1,972      8,326       861          698      1,764       6,364     2,416       2,066          688     1,150        6,242          710     17,482      40,275

# one-on-one sessions                         1,700           179         0         59     1,311           24         677         6         23            5         150          567         71            0    31,994

total # beneficiaries educated                6,869       2,151      8,326       920       2,009       1,788       7,041     2,422       2,089          693     1,300        6,809          781     17,482      72,269

estimated # people reached by media        179,360     2,463,932     1,100    919,510    752,500    4,200,936   1,915,775   83,992 118,000,000   1,850,000    787,000     2,738,400     1,700     2,973,253 4,222,558
events

estimated # people reached by                 9,366       9,498      2,493      1,644     16,916       7,570      16,158    10,174      12,328     13,914       5,032        8,825      3,000       68,220      68,264
community education events

# complaints received                            130           41     148           59         88         154          33        24         54      1,072            37           65         16          166        47

# complaints referred for follow-up               38           26        50          1         46          16          20        18         18          700           2           25         11          132        24

# complaints resulting in some action            DK             8     DK             0         53           2           0         0          5          528          0           13          2           DK         21

Medicare $ recouped                              DK           DK    17,320           0     5,102          787          0         0         DK           DK            0            0          0          DK    121,272

Other $ recouped                             34,762           DK     7,026          0     11,932       3,723           0         0         DK           DK            0          86     4,485            DK      4,493

Total $ recouped                             34,762           DK    24,346           0    17,034       4,510            0         0          0            0           0           86    4,485              0   125765

Please note these distinctions:
5. Baylor University, TX            6. The National Hispanic Council on Aging, TX
                                                                                                                               APPENDIX C
12-Month Outcomes Reported by the Senior Medicare Patrol Projects


              Activity                TOTAL        LA         MS         NC         NE         SC         SD         WY

OUTPUTS

# training sessions                        134            5         10         99         12          5          1         2

# trainers trained                        1,081          45         51        602        231         79         19        54

# media events                                49         21          4          4         11          0          0         9

# community education events               128           20         52         34         21          1          0         0

            OUTCOMES

total # trainers who have ever             169           18          6          9        114         10          2        10
conducted activities

# group sessions                           128           39         52          5         27          0          2         3

# beneficiaries at group sessions         2,999         546     1,484          67        692          0        125        85

# one-on-one sessions                      925           33        820          4         59          1          0         8

total # beneficiaries educated            3,924         579     2,304          71        751          1        125        93

estimated # people reached by           880,409    250,300    113,109     90,000    327,000           0          0   100,000
media events

estimated # people reached by             8,605      1,026      2,818      1,100      3,061         600          0         0
community education events

# complaints received                         69         22         22         11          5          3          0         6

# complaints referred for follow-up           15          1          0          2          5          2          0         5

# complaints resulting in some                 4          0          0          1          0          0          0         3
action

Medicare $ recouped                      10,240           0          0        140          0          0          0    10,100

Other $ recouped                           108            0          0        108          0          0          0         0

Total $ recouped                         10,348           0          0        248          0          0          0    10,100
